fa

2311 Douglas Street WAX

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-899
SHANIZ WEST,
Petitioner,
Vv.
DOUG WINFIELD, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 2666 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3 Ist day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

: GENERAL HOTARY-State of Hebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

   

Konus. 0. Beas? Qudiaw-h, Gly

Notary Public Affiant 39670
